HHS/OIG, Audit -"Effect of Staffing on Quality of Care at Nursing Facilities - Glen Haven Health and Rehabilitation, LLC,"(A-04-04-04002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - Glen
Haven Health and Rehabilitation, LLC," (A-04-04-04002)
February 27, 2004
Complete
Text of Report is available in PDF format (362 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on our review of 145 current direct care employees, we found that Glen
Haven complied with Federal and State staffing laws and regulations.  However,
we noted differences in the direct care hours per resident per day that we
calculated and the hours of care reported in the Nursing Home Compare website.  Glen
Haven agreed with our finding and recommendation and stated that a new system
has been implemented that will allow the hours to be verified.